October 3, 2014

MEMORANDUM FOR:                Ellen Herbst
                               Chief Financial Officer and Assistant Secretary for Administration



FROM:                          Andrew Katsaros
                               Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                       Nonfederal Audit Results for the 6-Month Period Ending
                               June 30, 2014

This memorandum provides an analysis of nonfederal audit reports, including a summary of
findings that the Office of Inspector General (OIG) reviewed during the 6-month period ending
June 30, 2014, for entities receiving federal awards subject to audit requirements. Section 1
discusses audit reports with findings that were submitted for states, local governments, tribes,
colleges and universities, and nonprofit organizations. Section II discusses all reports, regardless
of whether or not they had findings, that were submitted for commercial organizations.

1. Analysis of Audits Submitted for States, Local Governments, Tribes, Colleges
and Universities, and Nonprofit Organizations

Nonfederal entities (e.g., states, local governments, tribes, colleges and universities, and
nonprofit organizations) that expend $500,000 or more in federal awards in a year are required
by the Single Audit Act of 1984 and Amendments of 1996 to have an annual audit of their
federal awards conducted in accordance with Office of Management and Budget (OMB)
Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations.”

The purpose of the Single Audit Act is to establish standards for obtaining consistency and
uniformity among federal agencies in conducting audits of expenditures of federal awards by
nonfederal entities. The audit required by the Single Audit Act includes a review of the entities'
financial statements and Schedule of Expenditures of Federal Awards (SEFA). The auditor
determines whether the statements are presented fairly; tests internal controls; and determines
compliance with laws, regulations, and the provisions of the contracts or grant agreements that
may have a direct and material effect on each major program.
All auditees are required to electronically submit to the Federal Audit Clearinghouse a data
collection form (a summary of audit results) and a copy of the reporting package, which
consists of
        financial statements,
        a SEFA,
        a summary schedule of prior audit findings,
        auditor’s reports of compliance and opinion on the financial statements, and
        a corrective action plan.

The responsibilities of federal awarding bureaus under the Single Audit Act include
        identifying federal awards,
        advising recipients of requirements imposed on them by federal laws, regulations, and
         the provisions of contracts or grant agreements,
        ensuring audit completion and report receipt,
        providing technical advice to auditees and auditors, and
        issuing a management decision on audit findings within 6 months after receipt of the
         audit report and ensuring that the recipient takes appropriate and timely corrective
         action.1

OIG is responsible for reviewing the submitted audit report2 and auditee responses and
determining whether the recommendations can be implemented. In instances with
nonresolution findings,3 we notify the responsible bureau of the findings and emphasize the
importance of resolving them before the next audit; however, a formal response in accordance
with Department Administrative Order (DAO) 213-5, “Audit Resolution and Follow-Up,” is
not required.

In instances with material findings,4 the audit reports are resolved using the procedures of DAO
213-5. OIG notifies the auditee and the responsible bureau of the findings. We work with the
bureaus to ensure that they prepare written determinations, specifying concurrence or
nonconcurrence with each recommendation. The written determination presents a specific plan
of corrective action with appropriate target dates for implementing all accepted
recommendations. OIG conducts this review on an ongoing basis and presents summary
analyses semiannually.



1
  See Office of Management and Budget (OMB) Circular A-133, § 400(c).
2
  OIG limits review of submitted audits to those with current or prior-year findings.
3
  Nonresolution findings are those with questioned costs less than $10,000 or less-significant procedural or internal
control findings, usually affecting a specific program, whose resolution OIG does not monitor.
4
  Material findings are those with questioned costs greater than or equal to $10,000 or significant procedural or
internal control findings, whose resolution OIG monitors.


                                                          2
OIG reviewed each submitted report for compliance with the reporting requirements of OMB
Circular A-133 (but did not review the quality of the underlying audits) and analyzed the results.
Tables 1 and 2 summarize our observations. As shown in table 1, a total of 69 percent of all
reports reviewed contained at least one audit finding.

                 Table 1. Overview of OIG-Reviewed Single Audit Reports,
                                    January–June 2014
                                                                                      Percentage
                                    Reports                  Reports with
        Bureau                                                                        of Reports
                                   Reviewed                    Findings
                                                                                     with Findings
        EDA                               41                      32                            78

        NIST                              16                      12                            75

        NOAA                              12                       7                            58

        NTIA                              15                       9                            60

        Multiple bureausa                 32                      20                            63
        Total                           116                       80                            69

       Source: OIG
       a
         Multiple indicates that the single audit report included programs from more than one
       Departmental bureau.

Table 2 provides a summary analysis of reports reviewed, including the number of reports with
findings (material, nonresolution, and cross-cutting). It shows that
        the Economic Development Administration (EDA), National Oceanographic and
         Atmospheric Administration (NOAA), National Telecommunications and Information
         Administration (NTIA), and National Institute of Standards and Technology (NIST)
         administered grants whose grantees had material findings (that is, questioned costs
         greater than $10,000 or significant procedural or internal control findings, whose
         resolution OIG monitors);
        each of these four Department bureaus had between 10 and 47 nonresolution findings
         (that is, questioned costs less than $10,000 or less-significant procedural or internal
         control findings, usually affecting a specific program, whose resolution OIG does not
         monitor);
        each of these four Department bureaus along with the U.S. Census bureau had
         between 1 and 98 cross-cutting findings (that is, less-significant procedural or internal
         control findings, usually affecting more than one Departmental program, whose
         resolution OIG does not monitor); and
        a total of approximately $2.6 million of questioned costs were identified among all
         Departmental programs reviewed.




                                                         3
            Table 2. Types of Findings and Questioned Costs in OIG-Reviewed
                        Single Audit Reports, January–June 2014
                                      Type of Finding                                             Questioned
                                                                                 Total
         Bureau                                                                                     Costsd
                                           Non-               Cross-            Findings
                        Materiala                                                                  (dollars)
                                        resolutionb          cuttingc

         Census               0                 0                  2                   2                       0

         EDAe                17               47                  28                  92               362,601

         NIST                28               10                  12                  50               609,903

         NOAA                 9               17                  98                 124             1,292,007

         NTIA                 6               26                   1                 33                336,098

         Total              60               100                 141                301           $2,600,609

       Source: OIG
       a
         Material findings are those with questioned costs greater than or equal to $10,000 or significant
       procedural or internal control findings, whose resolution OIG monitors.
       b
         Nonresolution findings are those with questioned costs less than $10,000 or less-significant
       procedural or internal control findings, usually affecting a specific program, whose resolution OIG
       does not monitor.
       c
         Cross-cutting findings are less-significant procedural or internal control findings, usually affecting more
       than one Departmental program, whose resolution OIG does not monitor.
       d
         Questioned costs amounts are for federal share and are subject to change during the audit
       resolution/appeal process.
       e
         EDA also had $152,000 in funds to be put to better use.

The bureau programs with the most material findings, as shown in table 3, were the NIST
Manufacturing Extension Partnership, with 28 findings, and the EDA Investment for Public
Works, with 13 findings. The EDA Revolving Loan Fund program had the highest percentage of
awards reviewed with material, nonresolution, and/or cross-cutting findings, with 60 percent.

The most common finding types across all Departmental programs included noncompliance
with
        cost principles pertaining to allowable costs,
        reporting requirements (either deficient or late reports),
        cash management requirements, and
        cost principles pertaining to allowable activities.




                                                             4
                Table 3. Material Findings in OIG-Reviewed Single Audit Reports,
                          January–June 2014 by Departmental Program
                                                                        Number
                                                     Number                         Percentage
                                                                           of
                                       CFDA         of Awards                       of Awards      Material
    Bureau           Program                                             Awards
                                      Numbera       in Reports                         with        Findings
                                                                          with
                                                    Reviewedb                        Findingsb
                                                                        Findingsb

               Investments for
               Public Works and
    EDA        Economic                11.300            12                7           58              13
               Development
               Facilities
               Revolving Loan Fund
    EDA                                11.307            40               24           60               4
               Program
               Manufacturing
    NIST       Extension               11.611            23               13           57              28
               Partnership
               Coastal Zone
               Management
    NOAA                               11.419            21                3           14               1
               Administration
               Awards

               Unallied Management
    NOAA                               11.454            13                1             8              3
               Projects

    NOAA       Habitat Conservation    11.463            31                6           19               1

               Congressionally
               Identified
    NOAA                               11.469            10                1           10               4
               Construction
               Projects
               Broadband
               Technology
    NTIA                               11.557            33               13           39               6
               Opportunities
               Program

Source: OIG
a
  Catalog of Federal Domestic Assistance (CFDA) number
b
  An entity report may have more than one award per CFDA program listed on the SEFA. This table counts each
CFDA award line on the report SEFA. Counts may be larger than in tables 1 or 2 because a report may have
multiple awards for the same CFDA number.

II. Analysis of Audits Submitted for Commercial Organizations

Commercial organizations that receive federal funds from the Department are subject to award
requirements, as stipulated in the award document.5 The Department of Commerce’s Financial
Assistance Standard Terms and Conditions (January 2013) provides guidance that an audit shall be
performed (unless otherwise specified in the terms and conditions of the award) when the

5
    15 C.F.R. §14.26(c) and (d).


                                                     5
federal share amount awarded is $500,000 or more over the duration of the project period.
Additionally, these Standard Terms and Conditions provide that an audit is required at least
once every 2 years, depending on the length of the award and the terms and conditions of the
award. Some Departmental programs have specific audit guidelines that are incorporated into
the award. When the Department does not have a program-specific audit guide available for the
program, the auditor will follow the requirements for a program-specific audit, as described in
OMB Circular A-133, section 235.

The responsibilities of federal awarding bureaus in connection with for-profit audits, according
to the Department’s Grants and Cooperative Agreements Manual, include
      providing grants administration and programmatic guidance and support to recipients
       and
      reviewing the audit report and the recipient’s response and preparing the audit
       resolution proposal in accordance with DAO 213-5.

OIG’s responsibility for the review of for-profit audits is the same as for single audits (see
section 1). During the current review period, our analysis of audits submitted for commercial
and other organizations included the NIST Advanced Technology Program (ATP) awards, NIST
Technology Innovation Program (TIP) awards, and NTIA Broadband Technology Opportunities
Program (BTOP) awards. Each of these programs also has recipients that could be subject to
audit in accordance with OMB Circular A-133, addressed in part I.

ATP and TIP awards range from 1 to 5 years in duration, with audits due after the first, third,
and fifth years. ATP, which awarded grants from 1990 through 2004, was replaced by TIP in
2007, which awarded grants from 2009 through 2011. The last group of audit report
submissions was due in 2013 for ATP awards and will be due in 2015 for TIP awards.

BTOP awards span 3 years, with audits due after the first and third years. NTIA awarded BTOP
grants in 2010, and all first-year audits submitted have been reviewed. We have begun receiving
the third-year audit reports for review.

For commercial audits, both the grants officer and OIG receive a copy of the program-specific
audit reporting package, prepared in accordance with program guidelines (see table 4).




                                                6
Table 4. Audit Guidance, Threshold, and Requirements for Reporting Packages
            for Commercial Audit Submissions Reviewed by OIG

                                              NTIA                      NIST                   NIST
                                              BTOP                      ATP                    TIP

 CFDA number                                  11.557                    11.612                 11.616
                                                                                             Government
                                                                                          Auditing Standards
                                                                   Program-specific
                                                                                            and program-
 Audit guidance                       Program-specific audit      audit guidelines for
                                                                                            specific audit
                                       guidelines for BTOP         ATP cooperative
                                                                                           guidelines from
                                                                     agreements
                                                                                            OMB Circular
                                                                                            A-133, § 235
 Audit threshold                            >$100,000                 All awards             All awards

    Schedule of funds’ sources
                                                                                                
      and project costs
    Independent auditor’s reporta                                                               
    Internal control and
                                                                                                
      compliance report
    Schedule of findings and
                                                                                                
      questioned costs
    Schedule of prior audit
                                                                                                
      findings
    Corrective action plan                                                                      

    Management assertions                      N/Ab                                            N/A

                                       If available (audit not
    Audited financial statements                                         N/A                    N/A
                                              required)

Source: OIG, from program-specific audit guidelines for BTOP and ATP cooperative agreements, as well as
Government Auditing Standards and program-specific audit guidelines in OMB Circular A-133, § 235
a
  The independent auditor’s report is the opinion (or disclaimer) of whether the Schedule of Funds Sources and
Project Costs award is presented fairly in all material respects in conformity with generally accepted accounting
principles or another comprehensive basis of accounting.
b
  N/A = not applicable




                                                       7
We reviewed each report for compliance with the applicable reporting requirements (but not
for the quality of the underlying audits) and analyzed the results. Table 5 summarizes our
review of program-specific audits of awards made to commercial organizations by NIST and
NTIA. It shows that
        a total of 56 percent of all reports reviewed contained at least one finding,
        both NIST and NTIA administered grants with material findings and nonresolution
         findings, and
        a combined total of approximately $305,000 in questioned costs were identified among
         NIST and NTIA programs.

There was an ATP finding for noncompliance with cost principles pertaining to allowable costs.
The most frequent finding type across the TIP program was noncompliance with matching and
cost principles pertaining to allowable costs. The most frequent finding type across the BTOP
program was noncompliance with equipment management and cost principles pertaining to
allowable costs.

                  Table 5. Analysis by Bureau for OIG-Reviewed Commercial
                              Audit Reports, January–June 2014a
                                             Reports    Percentage of                  Non-                 Questioned
                      CFDA       Reports                                Material                  Total
Bureau   Program                               with     Reports with                resolution                Costsd
                     Number     Reviewed                                Findingsb                Findings
                                             Findings     Findings                   Findingsc               (dollars)

NIST       ATP       11.612          1          1              100          1            0          1       $ 21,285
NIST        TIP      11.616          4          4              100          3            4          7        232,139
NTIA      BTOP       11.557        22           10             45           2            9         11         51,572
Total                              27          15              56           6          13          19       304,996

Source: OIG
a
  Each of these programs has recipients that could be subject to audit in accordance with OMB Circular A-133; if
significant, results for those reviews appear in section 1.
b
  Material findings are those with questioned costs greater than or equal to $10,000 or significant nonfinancial
findings.
c
  Nonresolution findings are those with questioned costs less than $10,000 or less-significant procedural or internal
control findings, usually affecting a specific program, whose resolution OIG does not monitor.
d
  Questioned costs amounts are for federal share and are subject to change through the audit resolution/appeal
process.




                                                           8
Our nonfederal audit team, which will provide the bureaus with a detailed summary of the
findings, is ready to discuss these results in more detail as the Department proceeds with the
resolution of findings. If you have any questions, please contact me at (202) 482-4661 or
Susan Roy at (404) 730-2063.




                                               9
